                                                                UNITED STATES DEPARTMENT OF COMMERCE
                                                                Office of Inspector General
                                                                Washington, D.C. 20230




June 6, 2014


MEMORANDUM FOR:                 John H. Thompson
                                Director, U.S. Census Bureau


FROM: 	                          Ann C. Eilers
                                 Principal
                                                     ~   l>tV    l       ~
                                             Assista~nspector General for Audit and Evaluation
SUBJECT: 	                       Review of the 20 14 Site Test


As part of our ongoing oversight of the U.S. Census Bureau's preparations for the 2020
Decennial Census, we are initiating an audit to assess whether the bureau is incorporating
iterative testing strategies and including originally established research questions into the 2014
site test in order to fully inform design decisions.

Our specific objectives are to:
        • 	 Determine whether 2013 site test results informed 2014 testing strategies and if the
            2020 Census Research and Testing Program has a process in place to utilize 2014
            testing results to inform the 2015 site test; and
        • 	 For projects included in the 2014 site test, assess whether the testing strategies
            respond to originally developed research questions.

We will contact the audit liaison to arrange an entrance conference. In the interim, we will send
you a request for project and test documents involved in the 2014 test. Please provide us with
the information within 2 weeks of receiving this request. We also request online, read-only
access to these documents, and any field status reports, memorandums, or other documents
pertaining to the planning and progress of the test. In the meantime, if you have any questions
about this review, call Carol Rice, Division Director, at (202) 482-6020. Thank you in advance
for your cooperation.


cc: 	     Pam Moulder, Senior Program Analyst, Economics and Statistics Administration
          Adam Miller, Census Audit Liaison
